HHS/OIG-Audit--"Little Company of Mary's skilled nursing facilities
billings and costs for ancillary medical supplies, (A-09-96-00083)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Little Company of Mary's Skilled Nursing Facilities Billings and Costs
for Ancillary Medical Supplies for the Period July 1, 1992 through June 30,
1994," (A-09-96-00083)
August 19, 1997
Complete Text of Report is available in PDF format
(736 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report discloses that Little Company of Mary Health Services billed Medicare
for medical supplies and pharmacy supplies that were not in compliance with
Medicare's rules and misclassified significant costs on the Medicare cost reports
of its two hospital-based skilled nursing facilities for fiscal years ended
June 30, 1993 and June 30, 1994.
We did not quantify the financial impact of the unallowable billings or misclassified
costs as our review was limited to determining what types of supplies and services
were billed as ancillary or claimed as ancillary cots and were unallowable as
such.
We recommended that Blue Cross ensure that Little Company of Mary Health Services
makes certain procedural changes and refiles appropriate cost reports, if necessary.